April 12, 2010

JAMES C. MILLER, III
CHAIRMAN, AUDIT & FINANCE COMMITTEE

SUBJECT:         Officer Compensation for Calendar Year 2009
                 (Report Number FT-WP-10-001)

This report presents the results of our audit of compensation paid or deferred to
officers1 based on the limits established in the Postal Accountability and Enhancement
Act of 2006 (Postal Act of 2006) and U.S. Postal Service policies and guidelines
(Project Number 10BM001FT001). Initially we performed this work in fiscal year (FY)
2008, in response to an inquiry from the Board of Governors (Board) regarding the audit
coverage we provide for officer compensation. We will continue to provide a report
annually as part of our ongoing financial statement audit work. See Appendix A for
additional information about this portion of the audit.

Background

The passage of the Postal Act of 2006 amended Title 39, imposing guidelines on total
compensation2 for the Postal Service. Under this provision, the total compensation
payable to any employee is established at three levels:

       Level I of the Executive Schedule or $196,700 for calendar year 2009.
       With the approval of the Board, total annual compensation not to exceed the total
        annual compensation payable to the vice president of the United States, or
        $227,300 for calendar year 2009. 
       For up to 12 officers or critical employees, compensation up to 120 percent of the
        total annual compensation payable to the vice president of the United States, or
        $272,760 for calendar year 2009.

Further, Postal Service officers receive additional benefits and other perquisites not
subject to the compensation cap.

Conclusion

The Postal Service complied with the compensation limits stated in the Postal Act of
2006. Further, while we reviewed deferred compensation as a part of the overall scope,

1
  Defined in this report as Postal Career Executive Schedule II employees, the Secretary of the Board of Governors,
and the Inspector General.
2
  Compensation includes annual salary, merit lump sum payments, bonuses, and awards. 
Officer Compensation for Calendar Year 2009                                                         FT-WP-10-001



it does not apply to compensation caps. We noted that six of 44 officers were allocated
a total of $502,395 in deferred compensation3 during calendar year 2009. Officers may
be granted deferred compensation that is distributed after employment ends, or in a
year when the payment of previously deferred compensation does not exceed the cap.
Title 39 does not limit the Postal Service from devising and implementing deferred
compensation provided it does not conflict with either the Federal Employees’
Retirement System or Civil Service Retirement System.

If you have any questions or need additional information, please contact Tammy
Whitcomb, assistant inspector general for audit, or me at 703-248-2100.

      E-Signed by Tammy Whitcomb
    VERIFY authenticity with ApproveIt




For
David C. Williams
Inspector General

Attachment

cc:        Mary Anne Gibbons
           Joseph Corbett
           Julie S. Moore
           Vince H. DeVito, Jr.
           Mia Han
           Sally K. Haring




3
    Deferred compensation is primarily bonuses awarded during FY 2008 and credited in early 2009.




                                                          2
Officer Compensation for Calendar Year 2009                                                         FT-WP-10-001



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The passage of the Postal Act of 2006 amended Title 39, imposing guidelines on total
compensation4 for the Postal Service. Under this provision, the total compensation
payable to any employee is established at three levels.

       The first limit provides that no officer or employee may be paid compensation at
        a rate in excess of the rate for level I of the Executive Schedule. This
        compensation limit was set at $196,700 for calendar year 2009.

       With the approval of the Board, however, the Postal Service may develop a
        program to award a bonus or other reward in excess of the above compensation
        limit, as long as this does not cause the total annual compensation paid to the
        officer to exceed the total annual compensation payable to the vice president of
        the United States as of the end of the calendar year in which the bonus or award
        is paid. In approving any such program, the Board must determine that the bonus
        or award is based on a performance appraisal system that makes meaningful
        distinctions based on relative performance. This total compensation limit was
        $227,300 for calendar year 2009.

       In addition, the Board may allow up to 12 officers or employees of the Postal
        Service in critical senior executive or equivalent positions to be paid total annual
        compensation up to 120 percent of the total annual compensation payable to the
        vice president of the United States as of the end of the calendar year in which
        such payment is received. This compensation limit was $272,760 for calendar
        year 2009.

Postal Service officers receive additional benefits and other perquisites not subject to
the compensation cap, including increased annual leave exchange hours, free financial
counseling, parking, life insurance, and health benefits.5 In certain limited cases, officers
have contractual benefits in the form of deferred compensation. These items are not
generally subject to the compensation guidelines defined in the Postal Act of 2006.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this portion of the FY 2010 Postal Service Financial Statements Audit -
Eagan Information Technology/Accounting Service Center was to determine whether
the Postal Service complied with the Postal Act of 2006 limits on annual compensation
for officers.


4
 Compensation includes annual salary, merit lump sum payments, bonuses, and awards. 
5
 The Postmaster General also receives driver and personal security services from the U.S. Postal Inspection
Service.




                                                         3
Officer Compensation for Calendar Year 2009                                   FT-WP-10-001



We conducted this portion of the audit from February through April 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

We relied on computer-generated data from payroll systems and the Eagan Accounts
Payable System for testing compensation, awards, bonuses, annual leave exchange,
and deferred compensation. We used advanced data analysis techniques to test data
gathered from these systems and performed specific internal control and transaction
tests, to include tracing selected information to supporting source records.

PRIOR AUDIT COVERAGE

                       Report               Final    Monetary
 Report Title          Number            Report Date  Impact    Report Results
Officer             FT-WP-09-002           6/17/09         $0 We made no
Compensation                                                  recommendations.
for Calendar
Year 2008
Executive           FT-WP-09-001              12/05/08   $670 We identified one
Compensation                                                  executive exceeding
                                                              the compensation
                                                              limit in calendar year
                                                              2007. Management
                                                              took corrective
                                                              action, so no
                                                              recommendations
                                                              were made.




                                                    4
